WAIVER

Supreme Court of the United States

No. 19-662
Thomas Sander v. City of Dickinson, North Dakota, et al,
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

Ki There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

City of Dickinson, North Dakota; Kylan Klauzer; and Jeremy Moser

 

 

& Iam a member of the Bar of the Supreme Court of the United States.

OG Jam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signatur

 

Date: _December 5, 2019

Scott K. Porsborg
& Mr. OMs, C Mrs. O Miss

Firm Smith Porsborg Schweigert Armstrong Moldenhauer & Smith

(Type or print) Name.

 

 

Address_!22 East Broadway Avenue, P.O. Box 460
Bismarck, ND Zip 98501
Zip

 

City & State
Phone __701-258-0630

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Richard H. Honaker Michael C. Waller
Cer Honaker Law Offices, LC Crowley Fleck, PLLP
214 Winston Drive 100 West Broadway, Suite 250
Rock Springs, WY 82901 Bismarck, ND 58502
rhonaker@wyoming.com mwaller@crowleyfleck.com
Attorney for Petitioner Attorney for Respondent, Terry Oestreich

Obtain status of case on the docket, By phone at 202-479-3084 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
